PROOF OF SERVICE
I, declare as follows:
I am a citizen of the United States, over the age of eighteen years I address
is 2030 Laurel Canyon Court, Fremont CA 94539.
On September 26, 2020,1 served the following document(s):
PETITION FOR WRIT OF CERTIORARI TO STATE BAR COURT
on the following persons at the location specified.
Office of General Counsel
State Bar of California
180 Howard Street
San Francisco CA 94102
in the manner indicated below:
—X—* BY MAIL: . By placing the said document(s) in an
envelope addressed as shown below. I sealed the envelope and placed it in for
collection with delivery fully prepaid on the date stated below to the
addressee.
........ BY PERSONAL SERVICE: . By placing the said
document(s) in an envelope addressed as shown above and caused such
envelope to be delivered by hand at the above location by a professional
messenger service.
I declare under penalty of perjury pursuant to the laws of the State of
California that the foregoing is true and correct.
Executed September 26, 2020 at Fremont, California.

PETITION FOR WRIT OF CERTIORARI

27

